Audit Report




OIG-11-090
SAFETY AND SOUNDNESS: Material Loss Review of First
Federal Bank of California
August 3, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents



Memorandum for the Acting Comptroller of the Currency


Section I   Crowe Horwath LLP’s Audit Report on the Material Loss
            Review of First Federal Bank of California


Section II Report Distribution
This page intentionally left blank.
                                           DEPARTMENT OF THE TREASURY
                                                  W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                     August 3, 2011




            MEMORANDUM FOR JOHN WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                      Kieu T. Rubb /s/
                                       Audit Director

            SUBJECT:                   Material Loss Review of First Federal Bank of California


            INTRODUCTION

            This memorandum presents the results of the material loss review of First Federal
            Bank of California (First Federal), Santa Monica, California. First Federal was
            regulated by the Office of Thrift Supervision (OTS). We are providing the results of
            this review for your information since the Office of the Comptroller of the Currency
            (OCC) assumed regulatory responsibilities for federal savings associations pursuant
            to P.L. 111-203.

            OTS closed First Federal and appointed the Federal Deposit Insurance Corporation
            (FDIC) as receiver on December 18, 2009. At that time, FDIC estimated that First
            Federal’s loss to the Deposit Insurance Fund was $144.4 million. However, in
            December 2010, FDIC revised the estimated loss to the Deposit Insurance Fund to
            $10 million.

            Under section 38(k) of the Federal Deposit Insurance Act, we are responsible for
            conducting a material loss review of the failure of First Federal. 1 To help fulfill this
            responsibility, we contracted with Crowe Horwath LLP (Crowe Horwath), an
            independent public accounting firm. Crowe Horwath’s report dated July 13, 2011,
            is provided as Section I.



            1
             At the time of First Federal’s failure, section 38(k) defined a loss as material if it exceeded the
            greater of $25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, section
            38(k) defines a material loss as a loss to the Deposit Insurance Fund in excess of $200 million for
            calendar years 2010 and 2011, $150 million for calendar years 2012 and 2013, and $50 million for
            calendar year 2014 and thereafter (with a provision that the threshold can be raised temporarily to
            $75 million if certain conditions are met).
Page 2

RESULTS OF MATERIAL LOSS REVIEW

We concur with Crowe Horwath’s reported conclusions regarding First Federal’s
causes of failure and OTS’s supervision of First Federal.

    •   First Federal failed primarily because of its high-risk growth strategy
        executed in 2004 and 2005 with excessive concentration in option
        adjustable-rate mortgages (option ARMs) without implementing adequate
        controls to manage the associated risks. First Federal funded this growth
        strategy with brokered deposits. Additional underwriting risk stemming from
        originating reduced documentation loans combined with the rapid decline in
        the economic environment, resulted in the deterioration of the thrift’s asset
        quality, including a substantial volume of problem loans and material loan
        losses.  
         
    •   OTS used informal actions to restrict the thrift’s growth and required First
        Federal to increase its capital levels. In addition, First Federal’s CAMELS
        ratings were downgraded. OTS issued a cease and desist (C&D) order and
        required the development of a capital restoration plan while First Federal was
        still well-capitalized. While these actions were appropriate, OTS could have
        also responded with more timely formal enforcement actions. As a result,
        OTS’s supervision of First Federal did not prevent a material loss to the
        Deposit Insurance Fund.

Details of Crowe Horwath’s conclusions are contained in their report.

We also concur with Crowe Horwath’s reported recommendations that:

    •   OTS ensure that action is taken on the recommendations in the internal
        failed bank review for First Federal that was issued October 28, 2010.

    •   OTS remind examiners to adhere to OTS guidance on the timing of formal
        enforcement actions, especially with thrifts whose CAMELS ratings 2 are a
        composite 3 or worse over examinations cycles.

OBJECTIVES, SCOPE, AND METHODOLOGY

Under section 38 (k), we are responsible for preparing a report to OTS that
(1) ascertains why First Federal’s problems resulted in a material loss to the
Deposit Insurance Fund; (2) reviews OTS’s supervision of the institution, including

2
 CAMELS is an acronym for performance rating components for financial institutions: Capital
adequacy, Asset quality, Management, Earnings, Liquidity, and Sensitivity to market risk. Numerical
values range from 1 to 5, with 1 being the best rating and 5 being the worst.
Page 3

its implementation of the prompt corrective action provisions of section 38(k); and
(3) makes recommendations for preventing any such loss in the future.

To help fulfill this responsibility, we contracted with Crowe Horwath to perform a
material loss review in accordance with generally accepted government auditing
standards. We evaluated the nature, extent, and timing of the work; monitored
progress throughout the audit; reviewed Crowe Horwath-prepared documentation;
met with its principals and staff; evaluated key judgments; met with OTS officials;
performed independent tests of OTS supervisory records; and performed other
procedures we deemed appropriate in the circumstances. We conducted our work
in accordance with generally accepted government auditing standards.

Section II identifies the recipients of this report. Should you wish to discuss the
report, you may contact me at (202) 927-5904.
This page intentionally left blank.
                       Section I

      Crowe Horwath LLP’s Audit Report on the
Material Loss Review of First Federal Bank of California
This page intentionally left blank.
Contents

Crowe Horwath Audit Report................................................................................                            1
    Results in Brief ...........................................................................................................      2

    Causes of First Federal’s Failure ...............................................................................                 3
         High Concentration in Option ARMs ...............................................................                            3
         Reliance on Brokered and Higher Cost Deposits for Liquidity……………… ....                                                       5
         Ineffective Controls Over High Option ARMs Concentration ...........................                                         5
         Decline in First Federal’s Real Estate Markets ................................................                              6

    OTS’s Supervision of First Federal ............................................................................                   7
          OTS’s Supervisory History and Actions ...........................................................                           7
          Action Taken by OTS Leading to Receivership ...............................................                                 8
          Stronger Response to Growth and Concentration in Option ARMs
            Was Warranted by OTS…………………………………………………………                                                                              10
          Prompt Corrective Action Used Appropriately .................................................                             11
          OTS Internal Failed Bank Review....................................................................                       11

    Recommendations .....................................................................................................           12

Appendices
    Appendix 1:              Objectives, Scope, and Methodology .............................................                       14
    Appendix 2:              Background ....................................................................................        16
    Appendix 3:              Glossary ........................................................................................      20
    Appendix 4:              Management Comments ................................................................                   27

Abbreviations

    ARM                      adjustable-rate mortgage
    C&D order                cease and desist order
    FDIC                     Federal Deposit Insurance Corporation
    FHLB                     Federal Home Loan Bank
    MRBA                     matter requiring board attention
    OIG                      Treasury Office of Inspector General
    OTS                      Office of Thrift Supervision
    PCA                      prompt corrective action
    ROE                      report of examination
    SFR                      single-family residential
    TFR                      Thrift Financial Report




                             Material Loss Review of First Federal Bank of California, a Federal Savings Bank                      Page ii
          Page Intentionally Left Blank




Material Loss Review of First Federal Bank of California, a Federal Savings Bank   Page iii
                                                                      Crowe Horwath LLP
                                                                      Independent Member Crowe Horwath International

                                                                      6750 North Andrews Avenue, Suite 200
                                                                      Ft. Lauderdale, Florida 33309-2180
                                                                      Tel 954.489.9310
                                                                      Fax 954.489.4741
                                                                      www.crowehorwath.com



Inspector General
Department of the Treasury

RE: Transmittal of Results for the Material Loss Review Report for First
Federal Bank of California, a Federal Savings Bank, Santa Monica,
California.

This letter is to acknowledge delivery of our performance audit report of the
Material Loss Review for First Federal Bank of California, a Federal Savings
Bank (First Federal). The objectives of this performance audit were to: (1)
determine the causes of First Federal’s failure and resulting material loss to the
Deposit Insurance Fund and (2) evaluate the Office of Thrift Supervision’s (OTS)
supervision of First Federal, including implementation of the prompt corrective
action (PCA) provisions of section 38. First Federal was closed by OTS on
December 18, 2009. The estimated loss to the Deposit Insurance Fund as of
June 10, 2011, was $10 million.

The performance audit results are in the accompanying performance audit report.
The information included in this report was obtained during our fieldwork, which
occurred during the period from April 2010 through June 2010.

We conducted our performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

We also included several appendices to this report. Appendix 1 contains a more
detailed description of our material loss review objectives, scope and
methodology. Appendix 2 contains background information on First Federal and
OTS’s supervision processes. Appendix 3 is a glossary of terms used in this
report. The terms defined in the glossary are underlined the first time they are
used in the report. Appendix 4 provides OTS’s comments regarding the report’s
recommendations.


Fort Lauderdale, Florida
July 13, 2011


          Material Loss Review of First Federal Bank of California, a Federal Savings Bank         Page 1
Results in Brief
              The primary cause of First Federal’s failure was a high-risk growth
              strategy executed in 2004 and 2005 with excessive concentration in
              option adjustable-rate mortgages (option ARMs) without implementing
              adequate controls to manage the associated risks. First Federal
              funded this growth strategy with brokered deposits. Additional
              underwriting risk stemming from originating reduced documentation
              loans combined with the rapid decline in the economic environment,
              resulted in the deterioration of the thrift’s asset quality, including a
              substantial volume of problem loans and material loan losses. Loan
              losses, with significantly diminished earnings and capital ratios,
              ultimately resulted in the failure of First Federal. 

              As a result of First Federal’s significant growth and increase of option
              ARMs as percentages of its assets and risk-based capital, OTS used
              informal actions to restrict the thrift’s growth and required First Federal to
              increase its capital levels. In addition, First Federal’s CAMELS ratings
              were downgraded. OTS issued a cease and desist (C&D) order and
              required the development of a capital restoration plan while First Federal
              was still well-capitalized. While these actions were appropriate, we
              conclude that OTS could have also responded with more timely formal
              enforcement actions.

              During our material loss review, OTS completed an internal failed bank
              review of First Federal which concluded that, similar to our material loss
              review, First Federal’s high growth in single-family residential (SFR)
              mortgages, funded by brokered deposits and borrowings, and less than
              full documentation underwriting contributed to its failure. The review
              recommended that OTS should regard significant unplanned and/or
              uncontrolled growth as higher-risk activity; take prompt action to establish
              and enforce concentration limits, particularly with higher risk assets;
              consider reduced documentation underwriting loans as unsafe and
              unsound unless risk mitigating controls are in place; and assign CAMELS
              ratings of 1 or 2 to thrifts with higher risk, aggressive growth strategies
              only if supported by mitigating risk management factors.

              Our material loss review affirms the findings and recommendations of
              OTS’s internal review.

              Recommendations

              We are recommending that OTS (1) ensure that recommendations
              from the internal failed bank review of First Federal are implemented
              and (2) remind examiners to adhere to OTS guidance on when formal

              Material Loss Review of First Federal Bank of California, a Federal Savings Bank   Page 2
              enforcement actions should be taken, especially with thrifts whose
              CAMELS ratings continue to deteriorate over examinations cycles.

              Management Response

              Although OTS management concurs with the recommendations, there
              is no practical way to implement them, given OTS’ imminent sunset
              and the practical fact that half of the OTS regulatory staff are attending
              previously scheduled Office of the Comptroller of the Currency staff
              conferences this week and next.

              We included management’s response in its entirety as Appendix 4.

Causes of First Federal’s Failure
              In 2004 and 2005, First Federal’s board and management embarked
              on a high growth strategy in option ARMs without implementing
              adequate controls to manage the associated risks. The growth strategy
              was funded with brokered deposits. First Federal originated most of
              these loans using reduced documentation standards. The increased
              concentration in option ARMs and reduced underwriting requirements
              significantly increased overall risk. Due to these conditions, combined
              with the rapid decline in the economic environment and specifically
              property values in California, the thrift experienced deterioration in
              asset quality, including a substantial volume of problem loans and
              material loan losses. Despite extensive option ARM portfolio
              modifications which did not result in a stronger performing portfolio,
              loan losses resulted in significantly diminished earnings, reduced
              capital, and ultimately, the failure of First Federal.

              High Concentration in Option ARMs

              First Federal historically focused on SFR loans and multi-family loans. In
              2004 and 2005, First Federal substantially grew its loan portfolio by
              primarily originating and holding SFR option ARMs. As figure 1 indicates,
              SFR loans totaled $2.5 billion in 2003 and by 2005 had increased to $7.5
              billion. In 2006, the thrift started to reduce option ARM originations in an
              effort to reduce its option ARMs concentration. However, First Federal had
              already created a significant concentration of loans originated in 2004 and
              2005 which negatively impacted its concentration of risk.




              Material Loss Review of First Federal Bank of California, a Federal Savings Bank   Page 3
Figure 1: First Federal’s Loan Portfolio Growth, 2003–2008 (in billions)
             $12.0 

             $10.0 

              $8.0 

              $6.0 

              $4.0                                                      Other

              $2.0                                                      Multi‐family
                                                                        Single‐Family Residential
               $‐
              $0 




                      Source: OTS Thrift Financial Reports (TFR), December 31, 2003 – December 31, 2008.

                          Excess concentrations in higher-risk assets pose additional risk to a
                          thrift because negative events, such as declining property values,
                          economic deterioration and natural disasters, have a greater
                          detrimental impact on overly concentrated groups.1 First Federal’s SFR
                          portfolio, (option ARMs constituted the majority of this portfolio) as a
                          percentage of risk-based capital, was significant during 2005 to 2009.
                          The level was as high as 57% in December 2005 and was 41% in
                          September 2009.

                          Further, high concentrations are subject to additional risk when they
                          consist of nontraditional mortgage products, such as option ARMs.
                          These loans are riskier because they give borrowers the option of
                          making a minimum monthly payment that may not cover the accrued
                          interest charges, let alone the principal amount. For borrowers who
                          pay the minimum payment, the result is negative amortization.

                          First Federal’s negative amortization loans generated large amounts of
                          capitalized interest, which was recorded on the thrift’s books as
                          accrued (uncollected) interest income in accordance with generally
                          accepted accounting principles. According to the 2009 report of
                          examination (ROE), First Federal’s negative amortization peaked at
                          $308 million in the second quarter of 2008. In June 2009, the negative


1
    OTS New Directions Bulletin 06-14, Concentrations of Risk.

                          Material Loss Review of First Federal Bank of California, a Federal Savings Bank   Page 4
                       amortization remained significant at $234 million, which was 77
                       percent of First Federal’s tier 1 capital.

                       First Federal significantly increased its option ARMs concentration in
                       2004 and 2005. By 2007, when the real estate market began to
                       deteriorate at unprecedented levels, the SFR portfolio experienced
                       significant credit deterioration. The SFR portfolio past due rate in
                       December 2007 was 3.84% and it continued to elevate through 2009.
                       SFR portfolio past dues were 10.56% in September 2009.

                       Reliance on Brokered and Higher Cost Deposits for Liquidity

                       First Federal relied on wholesale funding sources, including Federal
                       Home Loan Bank (FHLB) advances, brokered deposits, Fed Funds
                       Purchased and Repurchase Agreements to support its significant
                       option ARM growth. As table 3 shows, wholesale funding sources
                       totaled $4.4 billion in 2004 and increased to $7.0 billion in 2005 before
                       declining in 2007 to $3.0 billion.

Table 3: First Federal Wholesale Funding Sources
       (in billions)          December         December         December          December          December
                                2004             2005             2006              2007              2008
 FHLB Borrowings                $3.01            $4.16             $1.49            $2.08             $2.06

 Brokered Deposits              $1.20            $1.71             $2.80            $0.82             $1.70

 Fed Funds Agreements           $0.19            $1.16             $0.98            $0.12             $0.00

 Total                          $4.40            $7.03             $5.27             $3.02             $3.76
Source: Federal Deposit Insurance Corporation (FDIC) website and FirstFed Financial Corporation 10K reports.

                       Ineffective Controls Over High Option ARMs Concentration

                       First Federal did not apply the same underwriting criteria normally
                       associated with conventional mortgages for its option ARMs.
                       Borrowers were able to obtain an option ARM based on stated income
                       with reduced or no documentation. This type of underwriting is riskier
                       by nature, and when First Federal began offering these types of loans
                       they had never been tested in stressful economic conditions. As shown
                       in figure 2, reduced documentation loans accounted for more than 80
                       percent of the SFR loans originated in 2004, 2005, and 2006.




                       Material Loss Review of First Federal Bank of California, a Federal Savings Bank        Page 5
Figure 2: SFR Loan Originations by Documentation Level
           120%

                                                            99%
           100%


           80%


           60%
                                                                           Verified Income/Verified Assets
                                                      41%                  Stated Income/Verified Assets
                     41%          38%           37%
           40%                         33%
                  32%       34%                                            Stated Income/Stated Assets
                                          29%
                                                                           No Income/No Assets
           20% 17%                   19% 19%
                           15%     13%
                        10%                            11%
                                                         11% 1% 0 0
            0%
                    2004      2005       2006      2007        2008

        Source: FirstFed Financial Corporation 10-K reports.

                     Approving loans to borrowers without verifying income and asset
                     representations increased the option ARM portfolio credit risk. When
                     the economic downturn started in late 2007, First Federal began
                     tightening its underwriting criteria. However, it was too late for the thrift
                     to reduce or mitigate the risk in its option ARM portfolio. First Federal’s
                     option ARMs concentration, generated primarily by reduced
                     documentation underwriting, had a negative impact on the thrift’s asset
                     quality and financial condition.

                     Decline in First Federal’s Real Estate Markets

                     By 2007, there were clear indications that the economy as a whole and
                     the real estate market, in particular, were in decline. Before 2007, the
                     banking industry had experienced strong financial performance and
                     success. Many bank portfolios became heavily concentrated in real
                     estate because it was profitable and in high demand.

                     First Federal’s concentration in SFR option ARMs was primarily in
                     California. In 2007, in conjunction with the deterioration of housing
                     markets throughout the United States, the thrift’s lending markets
                     began to experience a real estate downturn. Consequently, First
                     Federal’s nonperforming real estate loans and allowance for loan and
                     lease losses (ALLL) increased significantly. For example, SFR charge-
                     offs increased from $14 million in 2007 to over $353 million in 2008.



                     Material Loss Review of First Federal Bank of California, a Federal Savings Bank      Page 6
                        In summary, First Federal failed to implement adequate controls and
                        manage the risks associated with its high-risk growth in 2004 and 2005
                        and concentration in option ARMs. When economic conditions
                        declined and the thrift incurred substantial losses, First Federal was
                        unable to sustain its earnings and capital at acceptable levels. The
                        thrift was not successful in its attempts to raise additional capital.
                        Deeming the thrift in an unsafe and unsound condition, OTS closed
                        First Federal on December 18, 2009, and appointed the FDIC as
                        receiver.

OTS’s Supervision of First Federal
                        OTS recognized the risk of First Federal’s significant growth in option
                        ARMs beginning in 2004 and responded by increasing its monitoring of
                        the thrift. While OTS did not issue a formal regulatory action until 2009,
                        they used informal actions to restrict the thrift’s growth in option ARMs
                        beginning in 2006. OTS identified the change in First Federal’s risk profile
                        starting in 2005 and downgraded the asset quality and management
                        CAMELS component ratings accordingly.

                        The following actions were taken by OTS to limit the loss of First
                        Federal’s failure (estimated to be $10 million as of June 10, 2011):

                            (1) restrict growth,
                            (2) decrease dependence on wholesale deposits,
                            (3) require a capital restoration plan when the thrift was still well-
                            capitalized, and
                            (4) allowing/approving First Federal’s contingent capital plan which
                            provided for voluntary receivership if their capital raising efforts
                            were not successful.

                        However, OTS should have responded to the concentration in option
                        ARMs and the deterioration of the CAMELS ratings with formal
                        enforcement actions sooner.

                        OTS’s Supervisory History and Actions

                        Table 5 summarizes the results of OTS’s safety and soundness and
                        limited-scope examinations of First Federal from 2004 until its closure
                        in December 2009.2 Generally, matters requiring board attention
                        (MRBAs) represent the most significant items reported in ROEs
                        requiring corrective action.

2
  OTS conducted its examinations and performed offsite monitoring of First Federal in accordance with the
timeframes prescribed in the OTS Examination Handbook.

                        Material Loss Review of First Federal Bank of California, a Federal Savings Bank   Page 7
        Table 5. Summary of OTS’s Examinations of and Enforcement Actions Against First Federal
                                                         Examination Results
                                            (Source: OTS ROEs and enforcement actions)
                   Total assets
    Date           (in $ billions)                           No. of                  Informal/formal
    started/date at time of        CAMELS      No. of        recommendations/ enforcement
    completed      examination     rating      MRBAs         corrective actions      actions
    7/19/2004      $5.5            1/121121    None          None                    None
    9/7/2004
    Full-scope
    examination
    4/14/2005      $7.5            2/221121    N/A           N/A                     N/A
    4/14/2005
    Limited
    examination
    8/8/2005       $9.8            3/333231    4             13                      None
    1/11/2006
    Full-scope
    examination
    9/11/2006      $10.3           3/232332    5             8                       None
    5/3/2007
    Full-scope
    examination
    9/10/2007      $7.4            3/233222    5             6                       Board resolution
    11/27/2007                                                                       (informal
    Full-scope                                                                       enforcement
    examination                                                                      action) dated
                                                                                     January 24, 2008
    9/29/2008      $7.4            4/444443    6             9                       C&D order (formal
    3/13/2009                                                                        enforcement
    Full-scope                                                                       action) issued
    examination                                                                      1/26/2009
    5/18/2009      N/A             5/554543    Reclassified from well-capitalized to adequately-
    5/18/2009                                  capitalized. Amended C&D order issued May 28, 2009.
    Notice of
    rating
    downgrades

                          Action Taken by OTS Leading to Receivership

                          As stated in the OTS Examination Handbook, OTS has long maintained
                          that “no documentation” residential real estate lending is an unsafe and
                          unsound practice.3 In addition, the 2006 Interagency Guidance on
                          Nontraditional Mortgage Product Risks stated that loans to individuals who
                          do not demonstrate the capacity to repay from sources other than the
                          collateral pledged, are generally considered unsafe and unsound. In the
                          case of First Federal, up to 72 percent of the thrift’s option ARMs

3
 OTS Examination Handbook, Appendix F One- to Four-Family Residential Real Estate Lending, Section
212F.

                          Material Loss Review of First Federal Bank of California, a Federal Savings Bank   Page 8
approved during 2004 through 2006 were based on stated income or
stated income and stated assets. An additional 10 percent to 19 percent
were underwritten without employment, income, or asset information.
During this period, as much as 85 percent of First Federal’s option ARMs
originated between 2004 and 2006 were not prudently underwritten in a
safe and sound manner based on OTS guidance.

OTS first identified concerns with the SFR portfolio concentration risk and
asset quality in the August 2005 examination. In the September 2008
examination, OTS continued to report concerns related to concentration
risk and significant deteriorations in asset quality. Due to the elevated risk
position identified during the examination, OTS took additional actions.
Specifically, OTS issued a supervisory directive in November 2008 which
required FirstFed Financial Corporation (FFC), the thrift’s holding
company, to engage a qualified independent investment banking firm to
analyze strategies for raising additional capital to support the thrift’s
activities. Continued asset and earnings deterioration and declining capital
ratios caused OTS to issue a notice of troubled condition designation in
December 2008 which included restrictions on growth, compensation and
benefits, third party contracts, dividends, and transactions with affiliates.

Capital raising efforts were not successful, and in January 2009 OTS
issued C&D orders to First Federal and FFC which included:

       A requirement to submit a capital plan within 15 days that indicated
        how the thrift would maintain a well-capitalized status at each
        quarter-end through 2011.
       Restrictions on any dividend payments to the holding company.
       Restrictions on the holding company’s debt.
       Restrictions on the holding company’s payment of debt.
       Restrictions on entering into or changing employment contracts.

In the ROE issued March 2009, OTS lowered First Federal’s composite
CAMELS rating to 4 and identified 6 MRBAs and 9 corrective actions.

OTS conducted a comprehensive limited examination in May 2009 and
reviewed the thrift financial report (TFR) of March 31, 2009, noting further
declines in performance and financial strength. Based on this limited
examination OTS downgraded the composite and three CAMELS
component ratings to 5. On May 28, 2009, OTS issued amended C&D
orders requiring FFC to submit a detailed capital restoration plan that
would increase the thrift’s core capital to 7 percent and risk-based capital
to 14 percent by September 30, 2009.


Material Loss Review of First Federal Bank of California, a Federal Savings Bank   Page 9
When FFC did not comply with the capital requirements at September 30,
2009, OTS required the holding company to submit a contingent capital
plan. The contingent capital plan submitted by FFC indicated they would
raise $515 million in capital and inject $450 million of capital into the thrift
by December 2, 2009. The contingent capital plan also indicated that if
FFC was not successful raising needed capital by December 2, 2009, the
thrift would voluntarily consent to receivership within 2 days. OTS did not
object to this contingent capital plan.

Stronger Response to Growth and Concentration in Option ARMs
Was Warranted by OTS

OTS issued ROE comments and MRBAs to restrict First Federal’s
option ARM growth, enhance lending practices and increase capital
levels prior to 2008. However, these actions did not specifically
address First Federal’s credit concentration risk; and therefore formal
enforcement action specifically for this risk should have been issued
more timely.

Also, according to section 80 of the OTS Examination Handbook, if an
institution receives a CAMELS composite 3-rating for two consecutive
examinations following the association or holding company entering
into an informal enforcement action, the informal action is deemed
insufficient to address the issues. In addition, formal enforcement
actions are to be used when informal actions are or would be
unsuccessful in prompting corrective action.

OTS did not comply with this guidance. The initial C&D order and the
first formal enforcement action were issued in January 2009, 14
months after the third consecutive ROE with a composite CAMELS
rating of 3. These actions were taken during the examination that
started in September 2008, where OTS ultimately downgraded the
composite CAMELS rating to 4.

We discussed with OTS why a formal enforcement action was not
taken earlier in accordance with OTS guidance. OTS personnel
reiterated that in January 2008, OTS did take an informal enforcement
action through issuance of the Board Resolution. OTS personnel did
not have specific recollection as to why they choose the Board
Resolution as the appropriate supervisory response.




Material Loss Review of First Federal Bank of California, a Federal Savings Bank Page 10
                        Prompt Corrective Action Used Appropriately

                        The purpose of PCA is to resolve the problems of insured depository
                        institutions that result in the least possible long-term loss to the Deposit
                        Insurance Fund. PCA provides federal banking agencies with the
                        authority to take certain actions when an institution’s capital drops to
                        certain levels. PCA also gives regulators flexibility to supervise
                        institutions based on criteria other than capital to help reduce deposit
                        insurance losses caused by unsafe and unsound practices. For
                        example, OTS’s Enforcement Action Policy allows the regulator to
                        impose more severe limitations than a thrift’s PCA capital category
                        would otherwise permit or require if it is determined that the thrift is
                        operating in an unsafe or unsound condition or engaging in unsafe or
                        unsound practices.

                        First Federal’s capital levels remained above the PCA minimum for
                        well-capitalized institutions until the June 2009 TFR, when the thrift fell
                        to adequately-capitalized. OTS performed a limited-scope examination
                        in July 2009 which focused on First Federal’s compliance with the May
                        2009 C&D’s capital ratios. OTS had already instituted corrective
                        actions prior to June 2009 due to safety and soundness concerns.
                        While not directly related to PCA, the issuance of the C&D and related
                        restrictions were corrective measures taken earlier in the year by OTS
                        that included the capital restoration plan typically required under PCA.

                        We concluded that OTS appropriately used its authority under PCA,
                        and in a timely manner, as the thrift’s capital levels fell. However, these
                        actions did not prevent First Federal’s failure.

                        OTS Internal Failed Bank Review

                        In accordance with OTS policy, an internal review of First Federal’s failure
                        was performed to determine the causes of failure, evaluate the
                        supervision exercised by OTS, and provide recommendations based upon
                        the findings of the review.4 The OTS review determined that First
                        Federal’s failure was caused by high growth, funded by brokered deposits
                        and borrowings, of SFR mortgages with negative amortization and less
                        than full documentation underwriting features. First Federal’s


4
  OTS policy requires that an internal assessment be conducted when a thrift fails. That assessment, referred
to as an internal failed bank review, is performed by staff independent of the region responsible for
supervisory oversight of the failed thrift. The report is reviewed and signed by OTS’s deputy director of
examinations, supervision, and consumer protection. OTS’s Southeast Region initiated an internal review of
First Federal following its failure in December 2009. The scope of the review focused primarily on OTS’s
supervision from April 2002 to December 2009.

                        Material Loss Review of First Federal Bank of California, a Federal Savings Bank Page 11
           concentration in these assets, during a period of economic downturn in
           California, resulted in losses that were unsustainable.

           The OTS report made the following recommendations:

              OTS should continue to take steps to ensure that growth of all
               savings associations is prudent, adequately-capitalized, and
               directed and managed in a safe and sound manner. Significant
               unplanned and/or uncontrolled growth should be regarded as
               higher-risk activity. Growth that involves anything new, such as new
               products and practices, should be closely monitored.
              OTS should take prompt action to establish and enforce
               concentration limits, particularly with higher risk types of assets.
              OTS should consider as an unsafe and unsound practice the use of
               reduced documentation underwriting, including stated income and
               stated asset underwriting, unless appropriate mitigating risk controls
               are in place.
              Assigning composite CAMELS ratings of 1 or 2 to thrifts with higher
               risk, aggressive growth business strategies should be supported with
               factors that mitigate the risk, such as risk management controls and
               capital planning.

           Our material loss review affirms the findings and recommendations of
           OTS’s internal review.


Recommendations
           As a result of our material loss review of First Federal, we recommend
           that OTS do the following:

               1. Ensure that recommendations from OTS’s internal failed bank
                  review of First Federal’s are implemented.

                   Management Response
                   Although OTS management concurs with the recommendations,
                   there is no practical way to implement them, given OTS’
                   imminent sunset and the practical fact that half of the OTS
                   regulatory staff are attending previously scheduled Office of the
                   Comptroller of the Currency staff conferences this week and
                   next.

                   Crowe Horwath Comment
                   Agreed.

           Material Loss Review of First Federal Bank of California, a Federal Savings Bank Page 12
    2. Remind examiners to adhere to OTS guidance on the timing of
       formal enforcement actions, especially with thrifts whose
       CAMELS ratings are a composite 3 or worse over several
       examinations cycles.

        Management Response
        Although OTS management concurs with the recommendations,
        there is no practical way to implement them, given OTS’
        imminent sunset and the practical fact that half of the OTS
        regulatory staff are attending previously scheduled Office of the
        Comptroller of the Currency staff conferences this week and
        next.

        Crowe Horwath Comment
        Agreed.




Material Loss Review of First Federal Bank of California, a Federal Savings Bank Page 13
                        Appendix 1
                        Objectives, Scope, and Methodology


                        Our objectives were to determine the causes of the First Federal Bank
                        of California (First Federal) failure and assess its supervision by the
                        Office of Thrift Supervision (OTS). We conducted this material loss
                        review of First Federal under contract with the Department of the
                        Treasury Office of Inspector General (OIG) in response to its mandate
                        under section 38(k) of the Federal Deposit Insurance Act.5 This section
                        provides that if a deposit insurance fund incurs a material loss with
                        respect to an insured depository institution, the inspector general for
                        the appropriate federal banking agency is to prepare a report to the
                        agency that:

                            ascertains why the institution’s problems resulted in a material loss
                             to the insurance fund;
                            reviews the agency’s supervision of the institution, including its
                             implementation of the prompt corrective action provisions of section
                             38; and
                            makes recommendations for preventing any such loss in the
                             future.6

                        The OIG contracted with our firm to conduct this material loss review of
                        First Federal based on the loss estimate by the Federal Deposit
                        Insurance Corporation (FDIC). As of June 10, 2011, FDIC estimated
                        that the loss to the Deposit Insurance Fund from First Federal’s failure
                        would be $10 million.

                        To accomplish our review, we conducted fieldwork at OTS’s region
                        office in Daly City, California. We also met with officials of FDIC’s
                        Division of Resolutions and Receiverships in Irvine, California. We
                        conducted our fieldwork from April 2010 through June 2010.

                        To assess the adequacy of OTS’s supervision of First Federal, we
                        determined (1) when OTS first identified First Federal’s safety and
                        soundness problems, (2) the gravity of the problems, and (3) the
                        supervisory response OTS took to get the thrift to correct the problems.
                        We also assessed whether OTS (1) might have discovered problems

5
  12 U.S.C. § 1831o(k).
6
 At the time of First Federal’s failure on December 18, 2009, section 38(k) defined a loss as material if it
exceeded the greater of $25 million or 2 percent of the institution’s total assets. Effective July 21, 2010,
section 38(k) defines a loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150
million for calendar years 2012 and 2013, and $50 million for calendar years 2014 and thereafter (with a
provision that the threshold can be raised temporarily to $75 million if certain conditions are met). Section 38
(k) also requires the inspector general to complete the report within 6 months after it becomes apparent that a
material loss has been incurred.

                        Material Loss Review of First Federal Bank of California, a Federal Savings Bank Page 14
                          Appendix 1
                          Objectives, Scope, and Methodology


                          earlier; (2) identified and reported all the problems; and (3) issued
                          comprehensive, timely, and effective enforcement actions that dealt
                          with any unsafe or unsound activities. Specifically, we performed the
                          following work:
                              We determined that the period covered by our audit would be from
                               July 2004 through the thrift’s failure on December 18, 2009. This
                               period included five full-scope and one limited-scope safety and
                               soundness examinations prior to the appointment of FDIC as
                               receiver of the thrift on December 18, 2009.
                              We reviewed OTS’s supervisory files and records for First Federal
                               from 2004 through December 2009. We analyzed examination
                               reports, supporting workpapers, and related supervisory and
                               enforcement correspondence. We performed these analyses to
                               gain an understanding of the problems identified, the approach and
                               methodology OTS used to assess the thrift’s condition, and the
                               regulatory action OTS used to compel thrift management to
                               address deficient conditions. We did not conduct an independent or
                               separate detailed review of the external auditor’s work or
                               associated workpapers other than those incidentally available
                               through the supervisory files.
                              We interviewed OTS officials and examiners, discussed various
                               aspects of the supervision of First Federal, and obtained their
                               perspectives on the thrift’s condition and the scope of the
                               examinations.
                              We interviewed FDIC officials who were responsible for monitoring
                               First Federal for federal deposit insurance purposes.
                              We reviewed First Federal documents obtained by FDIC and
                               inventoried by FDIC Division of Resolutions and Receiverships
                               personnel.
                              We assessed OTS’s actions based on its internal guidance and
                               requirements of the Federal Deposit Insurance Act.7

                          We conducted this performance audit in accordance with generally
                          accepted government auditing standards. Those standards require that
                          we plan and perform the audit to obtain sufficient, appropriate evidence
                          to provide a reasonable basis for our findings and conclusions based
                          on our audit objectives. We believe that the evidence obtained
                          provides a reasonable basis for our findings and conclusions based on
                          our audit objectives.

7
    12 U.S.C. § 1811 et seq.

                          Material Loss Review of First Federal Bank of California, a Federal Savings Bank Page 15
Appendix 2
Background


History of First Federal
First Federal Bank of California, a Federal Savings Bank (First
Federal), was founded in 1929 as First Federal, FSB, and its original
thrift charter was issued in 1933. In 1935, First Federal became a
federally chartered mutual association. In 1983 First Federal converted
to a federally chartered stock company. First Federal became a wholly
owned subsidiary of FirstFed Financial Corporation (FFC) in 1997.
FFC was a holding company that operated primarily as a financing
vehicle for the thrift.

First Federal was historically a residential mortgage lender and was
consistently profitable. It had low loan delinquencies, good asset
quality, and strong capital levels until 2004 when the thrift embarked on
a strategy to generate significant growth and increase its option
adjustable rate mortgage (option ARM) portfolio. In December 2003
total assets were $4.8 billion and by the end of 2005 total assets had
increased to $10.5 billion.

The decline in housing prices in First Federal’s California market area
in 2007 contributed to rising delinquencies in its large portfolio of option
ARMs. Furthermore, a significant portion of these loans were
originated during the peak of the real estate market and were
underwritten mostly using alternative documentation standards.
Ultimately, the combination of an excessive concentration in risky
option ARMs and a downturn in economic conditions overwhelmed
First Federal’s capacity to absorb the losses on its option ARM
portfolio. OTS closed the thrift on December 18, 2009.

Types of Examinations Conducted by OTS

OTS conducts various types of examinations, including safety and
soundness, compliance, trust and information technology. Table 6
shows the number of OTS staff hours spent examining First Federal
from 2004 to 2009.




Material Loss Review of First Federal Bank of California, a Federal Savings Bank Page 16
   Appendix 2
   Background


Table 6: Number of OTS Hours Spent Examining First Federal, 2004-2009

   Examination Start Date       Number of Examination Hour
           7/19/2004                         1,021
           8/8/2005                          1,782
           1/3/2006                            230
           9/11/2006                         2,029
           5/29/2007                           176
           9/10/2007                         2,872
           9/29/2008                         3,377
           7/29/2009                           784
          11/30/2009                           295
   Source: OTS.
   *Hours are totaled for safety and soundness, information technology, and compliance
   examinations only.

   OTS must conduct full-scope examinations of insured thrifts either
   once every 12 months or once every 18 months, depending on the size
   of the thrift and other factors. First Federal was on a 12-month cycle.
   During a full-scope examination, examiners conduct an onsite
   examination and rate all CAMELS components. OTS then assigns the
   thrift a CAMELS composite rating based on its assessment of the
   thrift’s overall condition and OTS’s level of supervisory concern.

   Enforcement Actions Available to OTS

   OTS performs various examinations of thrifts that result in the issuance
   of reports of examinations identifying areas of concern. OTS uses
   informal and formal enforcement actions to address violations of laws
   and regulations and unsafe and unsound practices.

   Informal Enforcement Actions

   When a thrift’s overall condition is sound but it is necessary to obtain
   written commitments from its board of directors or management to
   ensure that it will correct identified problems and weaknesses, OTS
   may use informal enforcement actions. OTS commonly uses informal
   actions for problems in well- or adequately-capitalized thrifts and for
   thrifts with a composite rating of 1, 2, or 3.
   Informal actions notify a thrift’s board and management that OTS has
   identified problems that warrant attention. A record of informal action is
   beneficial in case formal action is necessary later.

   The effectiveness of informal action depends in part on the willingness
   and ability of a thrift to correct deficiencies that OTS notes. If a thrift

   Material Loss Review of First Federal Bank of California, a Federal Savings Bank Page 17
Appendix 2
Background


violates or refuses to comply with an informal action, OTS cannot
enforce compliance in federal court or assess civil money penalties for
noncompliance. However, OTS may initiate more severe enforcement
action against a noncompliant thrift.

Informal enforcement actions include supervisory directives,
memoranda of understanding, and board resolutions.

Formal Enforcement Actions

Formal enforcement actions are enforceable under the Federal Deposit
Insurance Act. They are appropriate when a thrift has significant
problems, especially when there is a threat of harm to the thrift,
depositors, or the public. OTS uses formal enforcement actions when
informal actions are considered inadequate, ineffective, or otherwise
unlikely to secure correction of safety and soundness or compliance
problems.

OTS can assess civil money penalties against thrifts and individuals for
noncompliance with a formal agreement or final orders. OTS can also
request a federal court to require a thrift to comply with an order.
Unlike informal actions, formal enforcement actions are public.

Formal enforcement actions include cease and desist orders, civil
money penalties, and prompt corrective action directives.

OTS Enforcement Guidelines

Considerations for determining whether to use informal action or formal
action include the following:

   the extent of actual or potential damage, harm, or loss to the thrift
    because of the action or inaction;
   whether the thrift has repeated the illegal action or unsafe or
    unsound practice;
   the likelihood that the conduct may occur again;
   the thrift’s record for taking corrective action in the past;
   the capability, cooperation, integrity, and commitment of the thrift’s
    management, board of directors, and ownership to correct identified
    problems;



Material Loss Review of First Federal Bank of California, a Federal Savings Bank Page 18
                     Appendix 2
                     Background


                         the effect of the illegal, unsafe, or unsound conduct on other
                          financial institutions, depositors, or the public;
                         the examination rating of the thrift;
                         whether the thrift’s condition is improving or deteriorating; and
                         the presence of unique circumstances.

                     OTS Assessments Paid by First Federal

                     OTS funds its operations in part through semiannual assessments on
                     thrifts. OTS determines each thrift’s assessment by adding together
                     three components reflecting the thrift’s size, condition, and complexity.
                     OTS computes the size component by multiplying a thrift’s total assets,
                     as reported on its thrift financial report, by the applicable assessment
                     rate. The condition component is a percentage of the size component
                     and is imposed on thrifts that have a 3, 4, or 5 CAMELS composite
                     rating. OTS imposes a complexity component if (1) the thrift
                     administers more than $1 billion in trust assets; (2) the outstanding
                     balance of assets fully or partially covered by recourse obligations or
                     direct credit substitutes exceeds $1 billion; or (3) the thrift services over
                     $1 billion of loans for others. OTS calculates the complexity component
                     by multiplying set rates by the amounts by which an association
                     exceeds each threshold. Table 7 shows the assessments that First
                     Federal paid to OTS from 2004 through 2009.

Table 7: Assessments Paid by First Federal to OTS between 2004 and 2009
               Billing Period                 Exam Rating           Amount Paid
               7/1/2004–12/31/2004                  1                        $ 398,052
               1/1/2005–6/30/2005                   1                        $ 494,720
               7/1/2005-12/31/2005                  2                        $ 618,823
               1/1/2006–6/30/2006                   3                       $ 1,087,983
               7/1/2006–12/31/2006                  3                       $ 1,156,928
               1/1/2007–6/30/2007                   3                       $ 1,144,988
               7/1/2007–12/31/2007                  3                        $ 992,013
               1/1/2008–6/30/2008                   3                        $ 900,089
               7/1/2008–12/31/2008                  3                        $ 871,157
               1/1/2009–6/30/2009                   4                       $ 1,222,190
               7/1/2009–12/31/2009                  5                       $ 1,149,770
               Total                                                       $10,036,713
Source: OTS.




                     Material Loss Review of First Federal Bank of California, a Federal Savings Bank Page 19
                     Appendix 3
                     Glossary


Allowance for loan and               An estimate of uncollectible amounts that is used
lease losses                         to reduce the book value of loans and leases to the
                                     amount that is expected to be collected. It is established
                                     in recognition that some loans in the institution’s overall
                                     loan and lease portfolio will not be repaid.

Board resolution                     A document designed to address one or more specific
                                     concerns identified by the Office of Thrift Supervision and
                                     adopted by a thrift’s board of directors.

Brokered deposit                     Any deposit that is obtained, directly or indirectly, from a
                                     deposit broker. The bank or thrift solicits deposits by
                                     offering rates of interest that are significantly higher than
                                     the rates offered by other insured depository institutions
                                     in its normal market area. Use of brokered deposits is
                                     limited to well-capitalized insured depository institutions
                                     and, with a waiver from the Federal Deposit Insurance
                                     Corporation, to adequately-capitalized institutions.
                                     Undercapitalized institutions are not permitted to accept
                                     brokered deposits. (See 12 U.S.C. § 1831(f) and 12
                                     C.F.R. 337.6.)

CAMELS                               An acronym for performance rating components for
                                     financial institutions: capital adequacy, asset quality,
                                     management, earnings, liquidity, and sensitivity to market
                                     risk. Numerical values range from 1 to 5, with 1 being the
                                     best rating and 5 being the worst.

Capital restoration plan             A plan submitted to the appropriate federal banking
                                     agency by an undercapitalized insured depository
                                     institution. A capital restoration plan specifies the steps
                                     the insured depository institution is to take to become
                                     adequately capitalized, the levels of capital to be attained
                                     during each year in which the plan is in effect, how the
                                     institution is to comply with the restrictions or
                                     requirements then in effect, the types and levels of
                                     activities in which the institution is to engage, and any
                                     other information that the federal banking agency may
                                     require.
Cease and desist order               A type of formal enforcement action. A cease and desist
                                     order issued by the Office of Thrift Supervision normally
                                     requires the thrift to correct a violation of a law or
                                     regulation, or an unsafe or unsound practice. The Office
                                     of Thrift Supervision may issue a cease and desist order

                     Material Loss Review of First Federal Bank of California, a Federal Savings Bank Page 20
                     Appendix 3
                     Glossary


                                     in response to violations of federal banking, securities, or
                                     other laws by thrifts or individuals or if it believes that an
                                     unsafe and unsound practice or violation is about to
                                     occur.

Compliance                           The part of a financial institution examination that
                                     includes an assessment of how well the institution
                                     manages compliance with consumer protection and
                                     public interest laws and regulations, including the Bank
                                     Secrecy Act.

Concentration                        As defined by the Office of Thrift Supervision, a group of
                                     similar types of assets or liabilities that, when
                                     aggregated, exceed 25 percent of a thrift’s core capital
                                     plus allowance for loan and lease losses. Concentrations
                                     may include direct, indirect, and contingent obligations or
                                     large purchases of loans from a single counterparty.

Concentration risk                   Risk in a loan portfolio that arises when a
                                     disproportionate number of an institution’s loans are
                                     concentrated in one or a small number of financial
                                     sectors, geographical areas, or borrowers.

Conventional mortgages               A conventional mortgage is a type of mortgage in which
                                     the underlying terms and conditions meet the funding
                                     criteria of Fannie Mae and Freddie Mac. This mortgage
                                     usually has a 30-year fixed interest rate and requires at
                                     least a 20 percent down payment.

Division of Resolutions              A division within the Federal Deposit Insurance
and Receiverships                    Corporation that is charged with resolving failing and
                                     failed financial institutions, including ensuring that
                                     depositors have prompt access to their insured funds.

Federal Home Loan Bank               A system of 12 regional cooperative banks created by
System                               Congress from which member institutions borrow funds
                                     to finance housing, economic development,
                                     infrastructure, and jobs. The system provides liquidity to
                                     member institutions that hold mortgages in their portfolios
                                     and facilitates the financing of mortgages by making low-
                                     cost loans, called advances, to members. Advances with
                                     a wide variety of terms to maturity, from overnight to
                                     long-term, are available to members and are
                                     collateralized. Advances are designed to prevent any

                     Material Loss Review of First Federal Bank of California, a Federal Savings Bank Page 21
                   Appendix 3
                   Glossary


                                   possible loss to Federal Home Loan Banks, which also
                                   have a super lien (a lien senior or superior to all current
                                   and future liens on a property or asset) when institutions
                                   fail. To protect their position, Federal Home Loan Banks
                                   have a claim on any of the additional eligible collateral in
                                   a failed institution. In addition, the Federal Deposit
                                   Insurance Corporation has a regulation that reaffirms the
                                   priority of Federal Home Loan Banks, which can demand
                                   prepayment of advances when institutions fail.

Fed Funds Purchased and            Fed funds purchased are reserve account balances
Repurchase Agreements              purchased for periods longer than a single day, but
                                   generally less than 90 days. Thrifts purchase Fed funds
                                   for an extended period when they see their borrowing
                                   needs lasting several days, or they believe short-term
                                   rates may rise and they want to lock in the current rate.

                                   A repurchase agreement is a sale of securities coupled
                                   with an agreement to repurchase the securities at a
                                   higher price on a later date. A repurchase agreement is
                                   similar to a secured loan. Most repurchase agreements
                                   (or repos, as they are called) are overnight transactions,
                                   with the sale taking place one day and repurchase the
                                   next. Long-term repos, or term repos, can extend for a
                                   month or more, usually for a fixed time period.

FICO score                         A credit score provided to lenders by credit reporting
                                   agencies to reflect information that each credit bureau
                                   keeps on file about the borrower. The scores are
                                   produced from software developed by the Fair Isaac
                                   Corporation. The scores take into consideration borrower
                                   information such as (1) timeliness of payments; (2) the
                                   length of time credit has been established; (3) the
                                   amount of credit used versus the amount of credit
                                   available; (4) the length of time at present residence; and
                                   (5) negative credit information such as bankruptcies,
                                   charge-offs, and collections. The higher the credit score
                                   is, the lower the risk to the lender.

Formal agreement                   A type of formal enforcement action authorized by
                                   statute. Formal agreements are generally more severe
                                   than informal actions and are disclosed to the public.
                                   Formal actions are also enforceable through the
                                   assessment of civil money penalties.

                   Material Loss Review of First Federal Bank of California, a Federal Savings Bank Page 22
                    Appendix 3
                    Glossary


Full-scope examination              Examination activities performed during the supervisory
                                    cycle that (1) are sufficient in scope to assign or confirm
                                    an institution’s CAMELS composite and component
                                    ratings, (2) satisfy core assessment requirements,
                                    (3) result in conclusions about an institution’s risk profile,
                                    (4) include onsite supervisory activities, and (5) generally
                                    conclude with the issuance of a report of examination.

Generally accepted                  A widely accepted set of rules, standards,
accounting principles               and procedures for reporting financial information
                                    established by the Financial Accounting Standards
                                    Board.

Information technology              An examination that includes review and evaluation
examination                         of the overall management of information systems used
                                    by a thrift and of the effectiveness of the internal audit
                                    and security functions for those systems.

Matter requiring                    A practice noted during an Office of Thrift Supervision
board attention                     examination of a thrift that deviates from sound
                                    governance, internal control, and risk management
                                    principles. The matter, if not addressed, may adversely
                                    affect the thrift’s earnings or capital, risk profile, or
                                    reputation or may result in substantive noncompliance
                                    with laws or regulations, internal policies or processes,
                                    supervisory guidance, or conditions imposed in writing in
                                    connection with the approval of any application or other
                                    request by the institution. Although matters requiring
                                    board attention are not formal enforcement actions, the
                                    Office of Thrift Supervision requires that thrifts address
                                    them. A thrift’s failure to do so may result in a formal
                                    enforcement action.

Negative amortization               Occurs when the monthly payments on a loan do not
                                    cover all of the interest owed. The unpaid interest is
                                    added to the principal and is referred to as capitalized
                                    interest. With negative amortization, a borrower may owe
                                    more than the original loan amount even after making
                                    several payments. Additionally, the borrower’s equity in
                                    the property will decrease over time unless the property
                                    value increases at a higher rate than negative
                                    amortization.



                    Material Loss Review of First Federal Bank of California, a Federal Savings Bank Page 23
                     Appendix 3
                     Glossary


Option ARMs                           Option ARMs are adjustable rate, high-risk loans that
                                      feature, among other things, possible negative
                                      amortization and significant payment increases as rates
                                      recast.

Prompt corrective action              A framework of supervisory actions for insured
                                      institutions that are not adequately capitalized. It was
                                      intended to ensure that action is taken when an institution
                                      becomes financially troubled in order to prevent a failure
                                      or minimize resulting losses. These actions become
                                      increasingly severe as an institution falls into lower
                                      capital categories. The capital categories are well-
                                      capitalized, adequately-capitalized, undercapitalized,
                                      significantly undercapitalized, and critically
                                      undercapitalized. (See 12 U.S.C. § 1831o.)

                                      The prompt corrective action minimum requirements are
                                      as follows:
                                                                Tier 1/
                                         Total                  Risk-                Tier 1/
               Capital Category          Risk-Based             Based                Leverage
                                         10% or           and 6% or           and 5% or greater
               Well-capitalizeda
                                         greater                greater
               Adequately-               8% or            and 4% or           and 4% or greater
               capitalized               greater                greater              (3% for 1-rated)
                                         Less             or    Less          or     Less than 4% (except
               Undercapitalized
                                         than 8%                than 4%              for 1-rated)
               Significantly             Less             or    Less          or     Less than 3%
               undercapitalized          than 6%                than 3%
                                         Has a ratio of tangible equity to total assets that is equal
               Critically
                                         to or less than 2 percent. Tangible equity is defined in
               undercapitalized
                                         12 C.F.R. § 565.2(f).
               a
                 To be well-capitalized, an institution also cannot be subject to a higher capital requirement
               imposed by the Office of Thrift Supervision.

Recourse                              With respect to financial assets such as loans, the legal
                                      ability of the purchaser of an asset to make a claim
                                      against the seller of the asset if the debtor fails to pay.
                                      For example, a loan sold with a recourse provision would
                                      allow the loan’s purchaser to make a claim against the
                                      loan’s seller in the event of debtor default.

Risk-based capital                    The sum of Tier1 plus Tier 2 capital.




                     Material Loss Review of First Federal Bank of California, a Federal Savings Bank Page 24
                      Appendix 3
                      Glossary


Safety and soundness                  The part of an examination that includes a review and
                                      evaluation of each CAMELS component (see explanation
                                      of CAMELS, above).

Stated income loan                    A specialized mortgage loan for which the lender verifies
                                      employment and assets, but not income. Instead, income
                                      is simply stated on the loan application.

Subordinated debt                     Debt that is either unsecured or has a lower priority than
                                      that of another debt claim on the same asset or property.
                                      Subordinated debt is also called junior debt.

Supervisory directive                 An informal enforcement action by the Office of Thrift
                                      Supervision that directs a thrift to cease an activity or
                                      take an affirmative action to remedy or prevent an unsafe
                                      or unsound practice.

Tangible equity                       Total assets minus intangible assets minus total
                                      liabilities.

Tier 1 capital                        Common shareholder’s equity (common stock, surplus,
                                      and retained earnings), noncumulative perpetual
                                      preferred stock, and minority interests in the equity
                                      accounts of consolidated subsidiaries.

Tier 2 capital                        Subordinated debt, intermediate-term preferred stock,
                                      cumulative and long-term preferred stock, and a portion
                                      of the allowance for loan and lease losses.

Thrift financial report               A financial report that thrifts are required to file quarterly
                                      with the Office of Thrift Supervision. The report includes
                                      detailed information about the institution's operations and
                                      financial condition and must be prepared in accordance
                                      with generally accepted accounting principles. The thrift
                                      financial report is similar to the call report required of
                                      commercial banks.

Troubled condition                    A condition in which a thrift meets any of the following
                                      criteria: (1) the Office of Thrift Supervision notifies it in
                                      writing that it has been assigned a CAMELS composite
                                      rating of 4 or 5; (2) it is subject to a capital directive, a
                                      cease and desist order, a consent order, a formal written
                                      agreement, or a prompt corrective action directive
                                      relating to its safety and soundness or financial viability;

                      Material Loss Review of First Federal Bank of California, a Federal Savings Bank Page 25
                    Appendix 3
                    Glossary


                                    or (3) the Office of Thrift Supervision informs it in writing
                                    of its troubled condition based on information available to
                                    the Office of Thrift Supervision. Such information may
                                    include current financial statements and reports of
                                    examination.

Wholesale funding                   Funding obtained by financial institutions through such
                                    sources as federal funds, public funds, FHLB advances,
                                    the Federal Reserve’s primary credit program, foreign
                                    deposits, and brokered deposits.




                    Material Loss Review of First Federal Bank of California, a Federal Savings Bank Page 26
Appendix 4
Management Comments




Material Loss Review of First Federal Bank of California, a Federal Savings Bank   Page 27
Appendix 4
Management Comments




Material Loss Review of First Federal Bank of California, a Federal Savings Bank   Page 28
    Section II

Report Distribution
        Department of the Treasury

            Deputy Secretary
            Office of Strategic Planning and Performance Management
            Office of Accounting and Internal Control

        Office of the Comptroller of the Currency

            Acting Comptroller of the Currency
            Liaison Officer

        Office of Management and Budget

            OIG Budget Examiner

        United States Senate

            Chairman and Ranking Member
            Committee on Banking, Housing, and Urban Affairs

            Chairman and Ranking Member
            Committee on Finance

        U.S. House of Representatives

            Chairman and Ranking Member
            Committee on Financial Services

        Federal Deposit Insurance Corporation

            Acting Chairman
            Inspector General

        U.S. Government Accountability Office

            Comptroller General of the United States




Material Loss Review of First Federal Bank of California, a Federal Savings Bank   Section II
(OIG-11-090)
